           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




  THE SOCIAL SECURITY ADMINISTRATION’S
   RECOVERY ACT-FUNDED CONTRACT WITH
  INTERNATIONAL BUSINESS MACHINES, INC.,
BLANKET PURCHASE AGREEMENT SS00-08-40004,
              CALL ORDER 51

      October 2011     A-15-11-11113




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      October 13, 2011                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Recovery Act-funded Contract with International
           Business Machines, Inc., Blanket Purchase Agreement SS00-08-40004, Call Order 51
           (A-15-11-11113)


           OBJECTIVE
           Our objectives were to determine whether (1) the Social Security Administration (SSA)
           properly accounted for American Recovery and Reinvestment Act of 2009 (Recovery
           Act) funds for the purchase of International Business Machines, Inc., (IBM) System i®
           hardware, software, and development tools; (2) the contractor complied with the
           contract terms and applicable regulations; and (3) SSA personnel properly monitored
           the contract.

           BACKGROUND
           On February 17, 2009, the President signed the $787 billion Recovery Act into law. 1
           The Recovery Act had three immediate goals: (1) create new jobs and save existing
           ones, (2) spur economic activity and invest in long-term growth, and (3) foster
           unprecedented levels of accountability and transparency in Government spending. 2

           In 2007, SSA awarded IBM Blanket Purchase Agreement (BPA) SS00-08-40004 to
           purchase IBM System i® hardware, operating system software, development software,
           and tools that are part of the disability determination service platform. In 2009, the
           Recovery Act granted SSA additional funding for this BPA to help address the increased
           disability and retirement workloads caused by a combination of the economic downturn
           and the baby boomer retirement wave. To address the increased workloads, SSA
           issued Call Order 51 on BPA SS00-08-40004 to increase the Agency’s computer
           capacity. Call Order 51 contracted with IBM to deliver and install System i® hardware,
           software, development tools, and technical support. Call Order 51 totaled $8,487,500.


           1
               Pub. L. No. 111-5, 123 Stat. 115 (2009).
           2
               http://www.recovery.gov/about/pages/the_act.aspx.
Page 2 - The Commissioner


RESULTS OF REVIEW
Based on our review at 10 disability determination services (DDS) locations and SSA
Headquarters, we found that (1) SSA properly accounted for Recovery Act funds for the
purchase of IBM System i® hardware, software, and development tools; (2) the
contractors complied with the contract terms and applicable regulations; and (3) SSA
personnel properly monitored the contract. In addition, we also determined that
3.54 jobs were created in relation to this contract.

During our audit, we identified three minor issues that did not negate IBM’s performance
or SSA’s oversight of the contract. The issues were as follows.

          1. SSA did not expend all the obligated funds related to Call Order 51.
          2. We identified minor errors in price listings of hardware and software SSA used in
             determining the amounts to pay IBM for its DDS systems expansion costs.
          3. Some DDSs allowed IBM staff to enter their locations without identification.

SSA’s Oversight of the Contract and IBM’s Compliance

SSA maintained adequate oversight of the IBM contract. The Contracting Officer
Technical Representative (COTR) monitored the delivery of hardware and software to
the DDSs. DDS staff informed us that the upgraded systems worked as expected with
increased capacity. For the 10 DDS sites visited, we reviewed equipment listings for all
the sites to ascertain that the System i® equipment was received and accounted for.
Furthermore, DDS staff stated the systems were upgraded timely.

Job Creation

The Recovery Act 3 requires that Federal contractors calculate and report the number of
jobs created using the total number of hours worked on contracts related to the
Recovery Act. 4 To determine IBM’s total number of jobs created, we ascertained the
number of jobs created as reported by IBM on www.FederalReporting.gov for the two
quarters ended March and June 2010. In addition, we requested IBM’s method of
calculation and supporting documentation for jobs created for those quarters. The
Office of Management and Budget’s (OMB) guidance for calculating the “Number of
Jobs” is based on converting full-time, part-time, or temporary jobs into fractional full-
time equivalents (FTE). 5 IBM reported a total of 3.40 jobs created for Call Order 51.
We determined the number of jobs reported as created by IBM for the duration of Call


3
    Pub. L. No. 111-5, Title XV, § 1512(c), 123 Stat. 286-288(2009).
4
    http://www.whitehouse.gov/omb/recovery_faqs_contractors.
5
    Id.
Page 3 - The Commissioner


Order 51. 6 Based on our calculations, we determined that there were 3.54 jobs created
for Call Order 51. 7 IBM reported the jobs created in a manner consistent with OMB
guidance. See Table 1 for our calculation of IBM jobs created for Call Order 51.

                 Table 1 – Calculation of Jobs Created for Call Order 51
                              July - Sept.   Oct. – Dec.    Jan. - March    April - June
            Hours                2009          2009            2010            2010          Total
    Full Time Schedule            520           520             520             520          520
    Hours Worked                  119          948.85          710.95           59.8        1838.6
    Quarterly FTE                 0.23          1.82            1.37            0.12         3.54

Obligated Funds Not Expended

We determined that SSA did not expend $28,958 of obligated funds. According to the
COTR, SSA paid IBM for all the invoices issued for Call Order 51. Once the COTR
confirms that SSA has received all the invoices, the remaining funds can be
deobligated. See Table 2.

                   Table 2 - IBM Contract SS00-08-40004 Call Order 51
                     Call Order 51 Obligation Amount                 $ 8,487,500
                     Total Costs Paid                                  8,458,542
                     Unused Funding                                   $ 28,958

Price Listing Errors

We identified errors in the price listing of hardware and software SSA used in
determining the payment amounts to IBM for its DDS systems expansion costs. The
General Services Administration (GSA) created the listing from an IBM product list. 8
6
  Call Order 51 commenced in September 2009 and was completed in April 2010. IBM’s calculation of
jobs created for quarters ended September and December 2009 were subject to an earlier Office of the
Inspector General (OIG) review, Contractors’ Reporting of Jobs Created Using American Recovery and
Reinvestment Act Dollars (A-15-10-21096), July 2010. As part of that review, we determined that the
proper number of jobs created for the quarters ended September and December 2009 was .23 and 1.82,
respectively, compared to IBM’s reported jobs created of 16.68 and 3.26. The disparity in the calculation
of jobs created or retained was due to IBM using an algorithm to estimate jobs related to commercial-off-
the-shelf (COTS) products it sold to SSA. IBM did not provide support for actual hours worked related to
the COTS products as guidance required. IBM's algorithm equaled its total U.S. revenue for 2008 divided
by its total number of U.S. employees for 2008, resulting in revenue per employee. The SSA Recovery
Act invoiced contract amount was then divided by the calculated revenue per employee figure to
determine the jobs retained for the COTS items.
7
  Based on supporting documentation provided by IBM, we determined for the quarters ended March
2010 and June 2010, the number of jobs created were 1.37 and .12, respectively. For these quarters,
IBM reported 1.25 and .10 to www.FederalReporting.gov. This minor variance of .14 for these two
quarters is due to IBM’s subsequent adjustments to time reports.
8
 IBM contract GS-35F-4984 H GSA Hardware Purchase Price, also GS-35F-4984 H GSA Software
Purchase Price.
Page 4 - The Commissioner


We identified instances where improper costs were associated with the IBM product.
See Appendix C. For example, a commercial price was used instead of the appropriate
Federal price. We compared the GSA product listing to the DDS systems expansion
costs listing and found IBM hardware and software amounts listed incorrectly. IBM
either overcharged or undercharged SSA. We recalculated the price for all the
hardware and software items related to Call Order 51. There were 1,078 items in total.
Of the 1,078 items, IBM improperly charged SSA for 17. We determined IBM
overcharged and undercharged SSA $33,341 and $24,158; respectively, for computer
hardware and software. The net effect of these errors was a $9,184 overcharge. See
Appendix C.

DDS Allowed IBM Staff Informal Entry into Work Site

SSA personnel informed us that IBM staff was not required to show identification to
enter the DDS. At the 10 DDS sites we visited, we interviewed DDS Information
Technology staff and verified that IBM installed equipment. At three sites, the DDS staff
stated that they did not always verify the IBM workers’ identification because they were
familiar with them. The DDS staff escorted the IBM staff to the DDS computer room
and monitored their work. The admittance of unauthorized personnel increases the
DDS’s risk of improper access to its systems.

CONCLUSION AND RECOMMENDATIONS
Our audit determined that SSA properly accounted for the Recovery Act funds for Call
Order 51 to purchase IBM System i® hardware, software, development tools, and
technical support. We determined SSA maintained adequate oversight of Call Order
51, and IBM properly delivered System i® hardware and software to various DDS
locations. Additionally, we determined there were 3.54 jobs created for this contract
and IBM reported them in a manner consistent with OMB guidance. However, we
determined (1) SSA did not expend all the obligated funds related to Call Order 51,
(2) there were minor errors in the price listings SSA used to pay vendor invoices, and
(3) there were instances where IBM staff entered DDS locations without identification.

We recommend SSA:

1. Verify that the Agency received all the IBM invoices and deobligate the $28,958 in
   funds for the IBM contract that were not expended.
2. Request that IBM repay the Agency $9,184 for the hardware and software
   overpayment on Call Order 51.
3. Encourage DDSs to continue to have personnel check the identification badges of
   contractors who enter DDS sites.
Page 5 - The Commissioner


AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix D.




                                     Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – International Business Machines, Inc. Items Invoiced and Paid by the
             Social Security Administration That Were Over or Under the General
             Services Administration’s Blanket Schedule Price/Contract Price
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                Appendix A

Acronyms
BPA            Blanket Purchase Agreement

COTR           Contracting Officer Technical Representative

COTS           Commercial-off-the-Shelf

DDS            Disability Determination Services

FAR            Federal Acquisition Regulation

FTE            Full-Time Equivalent

GSA            General Services Administration

IBM            International Business Machines, Inc.

OIG            Office of the Inspector General

OMB            Office of Management and Budget

POMS           Program Operations Manual System

Pub. L. No.    Public Law Number

Recovery Act   American Recovery and Reinvestment Act of 2009

SSA            Social Security Administration
                                                                       Appendix B

Scope and Methodology
To accomplish our objectives, we:

•   We reviewed the International Business Machines, Inc. (IBM), Blanket Purchase
    Agreement SS00-08-40004, Call Order 51, which covers the period September 2009
    through April 2010.

•   Reviewed the applicable Federal Acquisition Regulation (FAR), as stated in the
    contract, the Social Security Administration’s (SSA) Acquisitions Regulations, SSA’s
    Administrative Instructions Manual System, and Code of Federal Regulations over
    Prompt Payment.

•   Reviewed guidance, Office of Management and Budget Memorandum M-10-08,
    Updated Guidance on the American Recovery and Reinvestment Act – Data
    Quality, Non-Reporting Recipients, and Reporting of Job Estimates, and FAR
    52.204-11 American Recovery and Reinvestment Act Reporting.

•   Reviewed IBM’s methodology and supporting documentation used to calculate the
    number of jobs reported as created on www.FederalReporting.gov for the quarters
    ended March and June 2010. We then performed an independent calculation of
    jobs created, for the quarters ended March and June 2010, based on full-time
    equivalent positions (FTE) using Recovery Act hours worked divided by cumulative
    hours in a full-time schedule. An example of the calculation is as follows.

                      Hours                Jan - March 2010     April - June 2010
         Full Time Schedule                       520                 520
         IBM Recovery Act Hours Worked           710.95               59.8
         Quarterly FTE                            1.37                0.12

•   Determined the number of jobs created for the life of Call Order 51.

•   Reviewed the process related to contracts of the Offices of Acquisition and Grants
    and Disability Systems.

•   Gained an understanding of the responsibilities of the Contracting Officer and
    Contracting Officer Technical Representative (COTR).

•   Reviewed the suitability letters for all IBM contract employees and determined they
    were acceptable.




                                           B-1
•   Evaluated the COTR’s and Contracting Officer’s oversight of the IBM contract to
    ensure compliance, which included examining and approving IBM’s invoices.

•   Compared the General Services Administration’s IBM product listing to SSA’s
    disability determination services (DDS) systems expansion cost.

•   Visited 10 State DDSs where IBM completed contract work under Call Order 51,
    interviewed DDS staff, and verified that all equipment installed by IBM was present.

We performed our audit at SSA Headquarters in Baltimore, Maryland, and 10 DDS
locations: California, Florida, Georgia, Louisiana, Maryland, Missouri, North Carolina,
New Jersey, Ohio, and Pennsylvania. We conducted our audit from January through
May 2011. We found the data used for this audit were sufficiently reliable to meet our
objectives. The entities audited were the Offices of the Deputy Commissioners for
Budget, Finance and Management; Operations; and Systems.

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our objectives.




                                           B-2
                                                                                                         Appendix C

International Business Machines, Inc. Items Invoiced and Paid by the
Social Security Administration That Were Over or Under the General
Services Administration’s Blanket Schedule Price/Contract Price
This schedule represents the equipment purchases by the Social Security Administration (SSA) from the General
Services Administration where International Business Machines, Inc., (IBM) charged SSA incorrect amounts. The total
amount of Call Order 51 is $8,487,500. In some cases, IBM overcharged or undercharged SSA. The list below
represents the 17 items that IBM incorrectly charged SSA of the 1,078 total items SSA received under Call Order 51 from
September 2009 to April 2010. IBM improperly overcharged SSA a net amount of $9,184.

                   DDS                    Item Description   Total Overcharge        Total Undercharge
                   Pennsylvania           8204-E8A 4532      $     524.70            $           -
                   Pennsylvania           8204-E8A 4966      $ 3,702.60              $           -
                   Pennsylvania           8204-E8A 4986      $ 2,370.60              $           -
                   California             9117 MMA 2443      $         -             $        (4.50)
                   California             9117 MMA 7700      $ 2,765.70              $           -
                   Ohio                   8204-E8A 4966      $ 3,702.60              $           -
                   Ohio                   8204-E8A 4986      $ 3,555.90              $           -
                   NCC*                   9117-MMA 5617      $ 2,268.00              $           -
                   NCC                    9117-MMA 5675      $     703.80            $           -
                   NCC                    9117-MMA 7540      $ 2,937.60              $           -
                   NCC                    9917-MMA 7700      $         -             $ (23,674.50)
                   NCC                    7014-T42 6654      $         -             $      (478.80)
                   Georgia                8204-E8A 4966      $ 3,702.60              $           -
                   Georgia                8204-E8A 4986      $ 3,555.90              $           -
                   Wisconsin              8203-E4A 5634      $ 1,775.70              $           -
                   Wisconsin              5722-SSC 1781      $         -             $           -
                   Missouri               8203-E4A 5634      $ 1,775.70              $           -
                    Totals                                   $ 33,341.40             $ (24,157.80)
                     Net SSA Was Overcharged                                    $9,183.60
                   *National Computer Center
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      September 16, 2011                                                      Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “The Social Security Administration’s Recovery
           Act-funded Contract with International Business Machines, Inc., Blanket Purchase Agreement
           SS00-08-40004, Call Order 51” (A-15-11-11113)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord at (410) 966-5787.

           Attachment




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S RECOVERY ACT-FUNDED
CONTRACT WITH INTERNATIONAL BUSINESS MACHINES, INC., BLANKET
PURCHASE AGREEMENT SS00-08-40004, CALL ORDER 51”
(A-15-11-11113)

Recommendation 1

Verify that the Agency received all the International Business Machines, Inc. (IBM) invoices and
deobligated the $28,958 in funds for the IBM contract that were not expended.

Response

We agree. We verified IBM does not intend to submit any additional invoices related to Call
Order 51;therefore, we will deobligate $28,958 from the Blanket Purchase Agreement.

Recommendation 2

Request IBM to repay the Agency $9,184 for the hardware and software overpayment on Call
Order 51.

Response

We agree. We will take the necessary action to recover the $9,184 overpayment from IBM.

Recommendation 3

Encourage Disability Determination Services (DDS) to continue to have personnel check the
identification badges of contractors who enter DDS sites.

Response

We agree. We continue to provide guidance to all the DDS through our Annual Security
Reminders, and DDS Administrator and Center for Disability Programs monthly calls.




                                             D-2
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division

   Ronald Anderson, Acting Audit Manager

Acknowledgments

In addition to those named above:

   Sigmund Wisowaty, Auditor-In-Charge

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-15-11-11113.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
